                                                                  Issue Date
                                                                           March 23, 2007
                                                                  Audit Report Number
                                                                           2007-CH-1005




TO:         Thomas S. Marshall, Director of Public Housing Hub, 5DPH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Housing Authority of the City of Gary, Indiana, Lacked Adequate Controls
           over Refunding Savings

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Gary’s (Authority) nonprofit
             development activities. The review of public housing authorities’ development
             activities is set forth in our fiscal year 2006 annual audit plan. We selected the
             Authority because it was identified as having high-risk indicators of nonprofit
             development activity. Our objective was to determine whether the Authority
             effectively and efficiently used resources subject to its annual contributions
             contract, other agreements, or U.S. Department of Housing and Urban
             Development (HUD) regulations regarding its nonprofit development activities.

 What We Found

             The Authority did not effectively and efficiently use resources subject to its
             annual contributions contract, other agreements, or HUD’s regulations regarding
             its nonprofit development activity. It failed to properly administer refunding
             savings from the Fifth Avenue Housing Development Corporation’s
             (Corporation) June 1992 refunding of mortgage revenue bonds, May 1993
             redemption of mortgage revenue refunding bonds, and June 2001 refunding of
             mortgage revenue refunding bonds. It lacked adequate documentation to support
             that it used more than $900,000 in refunding savings from the Corporation’s 1992
             refunding of mortgage revenue bonds and 1993 redemption of mortgage revenue
             refunding bonds to provide affordable decent, safe, and sanitary housing to very
           low-income households. Further, the Authority and HUD were not aware of
           nearly $800,000 and at least $260,000, respectively, in refunding savings funds
           available to them until we brought it to their attention during our audit.

What We Recommend

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Authority to provide documentation or reimburse its refunding savings
           from nonfederal funds for the unsupported payments; submit a proposal for
           HUD’s approval regarding the Authority’s planned use of the unused refunding
           savings for affordable, decent, safe, and sanitary housing for very low-income
           households; and implement adequate procedures and controls to ensure that it
           uses the refunding savings and submits required certifications and reports in
           accordance with its financial adjustment factor refunding agreement with HUD.

           We also recommend that the director of HUD’s Cleveland Office of Public
           Housing request The Bank of New York Trust Company, N.A., to disburse to
           HUD the remaining refunding savings in the trust account from the Corporation’s
           refunding of the mortgage revenue refunding bonds in 2001.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report to the Authority’s interim executive
           director, the chairman of its board of commissioners, and HUD’s staff during the
           audit. We held an exit conference with the Authority’s interim executive director
           on March 9, 2007.

           We asked the Authority’s interim executive director to provide written comments
           on our discussion draft audit report by March 15, 2007. The interim executive
           director provided written comments, dated March 13, 2007. The interim
           executive director generally agreed with our finding. The complete text of the
           written comments, along with our evaluation of that response, can be found in
           appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                      4

Results of Audit

      Finding: The Authority Lacked Adequate Controls over Refunding Savings   6

Scope and Methodology                                                          10

Internal Controls                                                              11

Appendixes

   A. Schedule of Questioned Costs and Funds to Be Put to Better Use           13
   B. Auditee Comments and OIG’s Evaluation                                    14
   C. Federal Requirements                                                     18




                                             3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Gary (Authority) is a municipal corporation established by
the City of Gary, Indiana (City), in 1938 under section 36-7-18-4 of the Indiana Code to provide
decent, safe, and sanitary housing to low- and moderate-income persons and families under the
U.S. Housing Act of 1937. The Authority is governed by a seven-member board of
commissioners (board) appointed by the City’s mayor to four-year staggered terms. The board’s
responsibilities include overseeing the Authority’s operations. The board appoints the
Authority’s executive director, who is responsible for carrying out the board’s policies and
managing the Authority’s day-to-day operations.

As of February 2007, the Authority operated the following programs: public housing, consisting
of 2,277 units; Section 8 Housing Choice Voucher, consisting of 1,461 units; Public Housing
Capital Fund; and HOPE VI Revitalization of Severely Distressed Public Housing.

In accordance with its agency plan, a public housing agency may form and operate wholly
owned or controlled subsidiaries or other affiliates, which may be directed, managed, or
controlled by the same persons who constitute the board of directors or similar governing body
of the public housing agency or who serve as employees or staff of the public housing agency
but remain subject to other provisions of law and conflict-of-interest requirements. Further, a
public housing agency, in accordance with its agency plan, may enter into joint ventures,
partnerships, or other business arrangements with or contract with any person, organization,
entity, or governmental unit with respect to the administration of the programs of the public
housing agency, such as developing housing or providing supportive/social services subject to
either Title I of the U.S. Housing Act of 1937, as amended, or state law.

The Authority created the Fifth Avenue Housing Development Corporation (Corporation) in
1983 as a nonprofit organization to finance the development, rehabilitation, and/or operation of
decent, safe, and sanitary U.S. Department of Housing and Urban Development (HUD)-assisted
housing projects for low-income households. The Corporation issued mortgage revenue bonds,
series 1983A and 1983B, to finance the acquisition and construction of the NSA III and NSA V
projects for low-income households eligible for Section 8 housing assistance. The Corporation
refunded the bonds in June 1992 with mortgage revenue refunding bonds, series 1992A, 1992B,
1992C, and 1992D. In May 1993, the Corporation redeemed the mortgage revenue refunding
bonds, series 1992A and 1992C, with mortgage revenue refunding bonds, series 1993A and
1993B, respectively. The issuance of the mortgage revenue refunding bonds, series 1993A and
1993B, at reduced interest rates permitted HUD to recapture Section 8 funds used to subsidize
the NSA III and NSA V projects. HUD entered into a financial adjustment factor refunding
agreement (agreement) with the Authority in 1994. The agreement contained a refunding
savings sharing schedule that showed HUD and the Authority sharing in nearly $3.4 million in
refunding savings. The agreement stated that the Authority would receive 50 percent of the
refunding savings. JPMorgan Chase Bank, N.A. (JPMorgan), was the final escrow agent for the
trust accounts that maintained these refunding savings. The Corporation refunded the 1993
refunding bonds in June 2001 with mortgage revenue refunding bonds, series 2001A, 2001B, and
2001C. The trust indenture, dated June 2001, for these bonds contained a refunding savings
sharing schedule, which showed that HUD and the Authority would equally share in more than



                                                4
$1.3 million in refunding savings. The Bank of New York Trust Company, N.A. (The Bank of
New York), is the escrow agent for the trust account that maintained these refunding savings.

Our objective was to determine whether the Authority effectively and efficiently used resources
subject to its annual contributions contract, other agreements, or HUD regulations regarding its
nonprofit development activities.




                                                5
                               RESULTS OF AUDIT

Finding 1: The Authority Lacked Adequate Controls over Refunding
                              Savings
The Authority failed to properly administer refunding savings from the Corporation’s June 1992
refunding of mortgage revenue bonds, May 1993 redemption of mortgage revenue refunding
bonds, and June 2001 refunding of mortgage revenue refunding bonds. It lacked adequate
documentation to support that it used more than $900,000 in refunding savings from the
Corporation’s 1992 refunding of mortgage revenue bonds and 1993 redemption of mortgage
revenue refunding bonds to provide affordable, decent, safe, and sanitary housing to very low-
income households. Further, it had not used nearly $800,000 in refunding savings from the
Corporation’s 2001 refunding of mortgage revenue refunding bonds, and HUD had not received
at least $260,000 in refunding savings as of February 2007. The problems occurred because the
Authority lacked adequate procedures and controls over the refunding savings. As a result, HUD
and the Authority lack assurance that more than $1.7 million in refunding savings was used
effectively and efficiently.



 The Authority Could Not
 Support Its Use of Refunding
 Savings

              HUD received more than $1 million in refunding savings from January 1994
              through July 2001 as a result of the Corporation’s refunding of the mortgage
              revenue bonds in 1992 and redemption of the mortgage revenue refunding bonds
              in 1993. Although the Authority’s interim executive director stated that the
              Authority received and used nearly that amount in refunding savings from the
              Corporation’s 1992 refunding of the mortgage revenue bonds and 1993
              redemption of the mortgage revenue refunding bonds, the Authority and
              JPMorgan could only provide documentation to support that the Authority
              received $913,365 in refunding savings from January 1996 through July 2001.
              Further, the Authority could not provide documentation to support that it used the
              refunding savings to provide affordable, decent, safe, and sanitary housing to very
              low-income households.

              HUD received $654,876 in refunding savings from February 2002 through
              February 2005 as a result of the Corporation’s refunding of the mortgage revenue
              refunding bonds in 2001. The Authority was not aware of its share of the
              refunding savings from the Corporation’s 2001 refunding of the mortgage revenue
              refunding bonds until December 2006, when we brought it to the Authority’s
              attention during our audit. The following table shows the Authority’s share of the
              refunding savings from the NSA III and V projects and the dates that the
              refunding savings became available to the Authority.



                                               6
                 Date refunding              Refunding savings available
                savings available    From NSA III From NSA V             Total
                 February 2002            $75,707        $43,253         $118,960
                  August 2002              72,002          41,493         113,495
                 February 2003             73,483          39,825         113,308
                  August 2003              74,870          43,158         118,028
                 February 2004             73,850          41,490         115,340
                  August 2004              21,605          42,415           64,020
                 February 2005                  0          11,725           11,725
                     Totals              $391,517       $263,359         $654,876

           In January 2007, the Authority submitted a written request to The Bank of New
           York for its share of the refunding savings. Later in the month, The Bank of New
           York disbursed $794,990 ($654,876 in refunding savings and $140,114 in
           interest) of the $1,058,333 remaining in the trust account to the Authority. The
           Authority deposited the $794,990 into its checking account in January 2007 and
           then transferred the refunding savings into its high balance savings account in
           February 2007. The Authority is awaiting approval from HUD as to the use of the
           funds. The 2001 mortgage revenue refunding bonds were paid in full in
           December 2006 at redemption. As of February 2007, the trust account contained
           $266,412. A vice president of The Bank of New York stated that the remaining
           refunding savings, less approximately $5,000 in administrative fees, was payable
           to HUD. An accountant of HUD’s Office of the Assistant Chief Financial Officer
           for Accounting, who is responsible for overseeing the savings from the
           Corporation’s mortgage revenue refunding bonds, was not aware of the remaining
           refunding savings in the trust account.

The Authority Did Not Provide
Certifications and Reports to
HUD

           Contrary to the agreement, the Authority had not, as of February 2007, certified to
           HUD that it had expended the refunding savings in accordance with the
           provisions of the agreement and the Stewart B. McKinney Homeless Assistance
           Amendments Act of 1988 (McKinney Act), as amended by the Housing and
           Community Development Act of 1992 (Housing Act); provided any annual
           certifications to HUD that the refunding savings were used in accordance with its
           share of the savings plan in appendix B of the agreement, including a report
           describing who used the refunding savings and the nature of the assistance
           provided; and provided any triennial audits as to whether the assistance provided
           was in accordance with the McKinney Act.

           On August 15, 2005, the director of HUD’s Headquarters Office of Multifamily
           Housing Asset Management informed the Authority’s former executive director
           that the Authority had not submitted the required certifications and reports and
           requested the Authority to comply with the reporting requirements of the



                                            7
           agreement as long as it was expending the refunding savings. The director stated
           that the Authority could submit one consolidated multiyear certification and one
           audit for the years in which the refunding savings were expended to facilitate
           timely compliance. The Authority had not responded to HUD’s request as of
           February 2007.

The Authority Lacked
Adequate Controls over
Refunding Savings


           The Authority lacked adequate procedures and controls over its refunding savings
           funds from the Corporation’s 1992 refunding of mortgage revenue bonds, 1993
           redemption of mortgage revenue refunding bonds, and 2001 refunding of
           mortgage revenue refunding bonds. It commingled the refunding savings from
           the Corporation’s 1992 refunding of mortgage revenue bonds and 1993
           redemption of mortgage revenue refunding bonds in its general fund account and
           could not trace its use of the refunding savings. The Authority’s interim
           executive director stated that the Authority was not aware of the refunding
           savings from the Corporation’s 2001 refunding of mortgage revenue refunding
           bonds and did not submit required certifications and reports due to poor record
           keeping and employee turnover.

           As a result, HUD and the Authority lack assurance that more than $1.7 million in
           refunding savings was used effectively and efficiently.

Recommendations

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Authority to

           1A.    Provide documentation to support that the $913,365 in refunding savings
                  cited in this finding was used to provide affordable, decent, safe, and
                  sanitary housing to very low-income households or reimburse from
                  nonfederal funds its refunding savings account(s), as appropriate, to be
                  able to trace its use of the savings.

           1B.    Submit a proposal for HUD’s approval regarding the Authority’s planned
                  use of the $794,990 in unused refunding savings for affordable, decent,
                  safe, and sanitary housing for very low-income households.

           1C.    Implement adequate procedures and controls to ensure that it uses the
                  refunding savings and submits required certifications and reports in
                  accordance with the agreement.




                                           8
We also recommend that the director of HUD’s Cleveland Office of Public
Housing

1D.    Request The Bank of New York to disburse to HUD the remaining
       refunding savings funds, estimated to be at least $260,000 ($266,412 in
       refunding savings less approximately $5,000 in administrative fees), in the
       trust account from the Corporation’s 2001 refunding of the mortgage
       revenue refunding bonds.




                                9
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       •   Applicable laws and regulations; the Authority’s annual contributions contracts with
           HUD; Office of Management and Budget Circular A-87; section 1012 of the McKinney
           Act, as amended by the Housing Act; HUD program requirements at 24 CFR [Code of
           Federal Regulations] Parts 85 and 811, HUD’s Office of Housing Notice 97-5; HUD’s
           agreement with the Authority; and section 36-7-18-4 of the Indiana Code.

       •   The Authority’s accounting records; independent auditor’s reports for fiscal years
           ending March 31, 2003, 2004, and 2005; general ledgers; check register; bank
           statements and cancelled checks; bylaws; board meeting minutes; organizational chart;
           and nonprofit development activity documentation.

       •   The Corporation’s certificate of incorporation, articles of incorporation, bylaws, and
           bond documentation.

       •   JPMorgan’s and The Bank of New York’s trust accounts documentation for the bonds.

       •   HUD’s files for the Authority.

We also interviewed the Authority’s employees, HUD staff, and JPMorgan’s and The Bank of
New York’s personnel.

We performed our on-site audit work from June 2006 through January 2007 at the Authority’s
offices, located at 578 Broadway, Gary, Indiana. The review covered the period from April 1,
2005, through May 31, 2006, and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                 10
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

                  •   Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               11
Significant Weaknesses

           Based on our review, we believe the following item is a significant weakness:

               •   The Authority lacked adequate procedures and controls to ensure that it
                   used refunding savings funds effectively and efficiently and submitted
                   required certifications and reports to HUD.




                                           12
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation                           Funds to be put
                      number            Unsupported 1/     to better use 2/
                        1A                   $913,365
                        1B                                       $794,990
                        1D                                        260,000
                       Totals                 $913,365         $1,054,990


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reduction in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Authority and HUD implement
     our recommendations, the Authority will use refunding savings not previously used, and
     HUD will receive refunding savings funds.




                                            13
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation               Auditee Comments




                        G Evaluation of Auditee Comments




                                      14
Ref to OIG Evaluation               Auditee Comments




Comment 1




                        G Evaluation of Auditee Comments




                                      15
Ref to OIG Evaluation               Auditee Comments




                        G Evaluation of Auditee Comments




                                      16
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Authority and JPMorgan provided documentation to support that the
            Authority received $913,365 in refunding savings from January 1996 through
            July 2001. Further, the Authority could not provide documentation to support that
            it used the refunding savings to provide affordable, decent, safe, and sanitary
            housing to very low-income households.

            On August 15, 2005, the director of HUD’s Headquarters Office of Multifamily
            Housing Asset Management informed the Authority’s former executive director
            that the Authority had not submitted the required certifications and reports and
            requested the Authority to comply with the reporting requirements of the
            agreement as long as it was expending the refunding savings.

            Therefore, the Authority needs to provide documentation to support that the
            $913,365 in refunding savings cited in this finding was used to provide
            affordable, decent, safe, and sanitary housing to very low-income households or
            reimburse from nonfederal funds its refunding savings account(s), as appropriate,
            to be able to trace its use of the savings.




                                            17
Appendix C

                          FEDERAL REQUIREMENTS

Section 1012 of the McKinney Act, as amended by the Housing Act (Public Law 102-550),
states that refunding savings may only be used for providing affordable, decent, safe, and
sanitary housing to very low-income persons and families.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 811.110(g) state that unless
otherwise specified by HUD in a McKinney agreement, refunding savings shall be subject to the
use requirements in 24 CFR [Code of Federal Regulations] 811.110(g) for 10 years from the date
of receipt of the savings.

HUD’s Office of Housing Notice 97-5 states that the commingling of refunding savings is
strictly forbidden. Refunding savings must be segregated and traceable to the approved program
operations funded from the refunding savings. This is critical to the effectiveness of both the
agency and HUD’s internal controls.

Office of Management and Budget Circular A-87, attachment A, paragraph C(1)(j) requires that
all costs be adequately documented.

HUD’s agreement with the Authority required it to comply with the McKinney Act; use all
refunding savings in the City to provide affordable, decent, safe, and sanitary housing to very
low-income households; not use refunding savings to pay administrative costs except for
required reviews and reports; ensure that refunding savings used for development costs of
dwelling units and facilities be for very low-income households; require owners of rental
housing units assisted with refunding savings to limit the occupancy of such units to very low-
income households for a period of 10 years; only request payments for reimbursement of
refunding savings expended or expected to be expended within six months; include a
certification on later requisitions that refunding savings previously requisitioned were expended
or expected to be expended within six months in accordance with the agreement and the
McKinney Act; provide annual certifications to HUD within 90 days of the end of the
Authority’s fiscal year that the refunding savings were used in accordance with the Authority’s
share of the savings plan in appendix B of the agreement, including a report describing who used
the refunding savings and the nature of the assistance provided; and cause to be prepared
triennially a report from an independent consulting firm as to whether the assistance provided
was in accordance with the McKinney Act.

Section 4.09 of the trust indenture, dated June 2001, for the Corporation’s mortgage revenue
refunding bonds, series 2001A, 2001B, and 2001C, states that when provision has been made for
the payment of all the bonds outstanding, either at maturity or upon redemption, and for the
payment of the trustee’s, mortgage servicer’s, issuer’s, dissemination agent’s, and rebate agent’s
fees and expenses and all other costs due under the trust indenture at such payment in full,
money remaining under the trust indenture shall be transferred to HUD.




                                                18
